U.S. Department of                                                       Office of Inspector General
Transportation                                                           Washington, D.C. 20590
Office of the Secretary
of Transportation

August 26, 2008


INFORMATION MEMORANDUM TO THE SECRETARY


From:                     Theodore P. Alves
                          Deputy Inspector General
                          X66767

Prepared by:              David A. Dobbs
                          Principal Assistant Inspector General for Auditing and Evaluation
                          X61427

Subject:                  Inspector General Announces DOT’s FY 2009 Top Management
                          Challenges

________________________________________________________________________

SUMMARY

The Office of Inspector General (OIG) has identified eight top management challenges for
the Department of Transportation (DOT) for fiscal year (FY) 2009. In considering the
items for this year’s list, we continue to focus on the Department’s key strategic goals to
improve transportation safety, capacity, and efficiency.

When issued, this report and the Department’s response will be incorporated into the DOT
Performance and Accountability Report, as required by law.


BACKGROUND

The issues covered in this year’s report are listed below and will be presented in greater
detail in the final report.

    •   Enhancing Aviation Safety and Restoring Confidence in FAA’s Ability To Provide
        Effective Oversight of a Rapidly Changing Industry

    •   Enhancing Mobility and Reducing Congestion in America’s Transportation System
   •   Developing a Plan To Address Projected Highway and Transit Funding Shortfalls
       and Maximizing the Return on Current Surface Infrastructure Investments

   •   Maintaining the National Airspace System While Developing and Transitioning to
       the Next Generation Air Transportation System

   •   Protecting Against Increased Cyber Security Risks and Managing Limited
       Information Technology Resources More Effectively

   •   Preventing Catastrophic Failures and Obsolescence in the Nation’s Aging Surface
       Transportation Infrastructure

   •   Improving Contract Operations and Maintaining Procurement Integrity

   •   Enhancing and Deploying Proven Programs for Reducing the Serious
       Consequences of Surface Transportation Crashes


FOLLOW-UP

None required.


cc: Deputy Secretary
    Chief of Staff
    Assistant Secretary for Budget and Programs and Chief Financial Officer
    OST Audit Liaison, M-1




                                          2
